No. 20-

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

JAMES MICHAEL HOOD,
Petitioner,
vs.
UNITED STATES OF AMERICA,

Respondent.

 

CERTIFICATE OF SERVICE

 

The undersigned hereby certifies that a true and exact copy of the enclosed
Motion to Proceed in Forma Pauperis and Petition for a Writ of Certiorari has been
served upon the Solicitor General of the United States, Room 5614, Department of
Justice, 950 Pennsylvania Avenue, N.W., Washington, DC 20530-0001, and upon
Assistant United States Attorney Brian Samuelson, 800 Market Street, Suite 211,
Knoxville, TN 37902, by placing a true and exact copy of said Motion and Petition in
the United States Mail, with sufficient postage to carry the same to its destination.

This the 26th day of August, 2020.

<

NIF: TILES COFFIN
Assistant Federal Defender
Federal Defender Services

of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, Tennessee 37929
(865) 637-7979
